TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             Untimely Processing of
                        Taxpayer Carryback Loss Claims
                      Resulted in Significant Interest Costs



                                         August 31, 2006

                              Reference Number: 2006-40-139




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    August 31, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                            (for) Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Untimely Processing of Taxpayer Carryback Loss
                                  Claims Resulted in Significant Interest Costs (Audit # 200540034)

 This report presents the results of our review to determine whether refunds resulting from
 carryback claims filed by individuals on an Application for Tentative Refund (Form 1045) or an
 Amended U.S. Individual Income Tax Return (Form 1040X) were issued timely by the Internal
 Revenue Service (IRS) to minimize unnecessary taxpayer burden and avoid the payment of
 interest.

 Synopsis
 When taxpayers incur a significant loss from business activities or natural disasters to the extent
 their deductions exceed their income, they can opt to carry back the loss to prior tax years and
 obtain a refund of taxes paid in those prior years by filing a Form 1045 or Form 1040X. The IRS
 must process the claim and issue a refund within 45 calendar days of the received date of the
 Form or the due date of the loss year return (whichever is later) to avoid paying interest on the
 refund amount. The IRS was able to avoid or minimize the amount of interest it paid on
 14 percent of the 499 carryback claims we reviewed. However, improving the processes the IRS
 uses to work carryback claims could reduce further the amount of interest it pays.
 Delays in processing carryback claims increase the burden on taxpayers who are already
 experiencing financial hardship by extending the amount of time they must wait for their refunds
 and can result in the IRS paying additional interest. We reviewed a sample of 499 carryback
 claims (Form 1045 and Form 1040X transactions) that had posted to the IRS Individual Master
 File1 between August 1, 2004, and July 30, 2005. While the IRS timely processed most of the

 1
     The IRS database that maintains transactions or records of individual tax accounts.
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



499 claims, it paid approximately $1.8 million in unnecessary interest on 24 percent of the
refunds issued. Based on this sample, we estimate about 5,700 claims were not processed timely
                                   and interest of approximately $20.3 million was paid
                                   unnecessarily. If this condition is not corrected, it could
      The IRS could pay over       affect approximately 28,400 taxpayers, and the IRS could pay
     $101.7 million in interest
     during the next 5 years if    unnecessary interest totaling over $101.7 million during the
    processing delays are not      next 5 years.
              corrected.
                                          We identified several causes for the delays in processing
                                          carryback claims and the payment of unnecessary interest.
    •   Procedures in the Submission Processing sites2 did not ensure expedited identification
        and routing of carryback claims to the appropriate IRS function for processing. Also,
        there were delays in scanning the claims into the Correspondence Imaging System.3
    •   Carryback claims were not always assigned a priority code in the Correspondence
        Imaging System as required. These codes help ensure carryback claims are given priority
        when being processed, in an effort to prevent paying interest on the claims.
    •   The IRS did not issue manual refunds as required on carryback claims over $1 million
        and on other claims for which the 45-day interest-free period was in jeopardy. Each IRS
        campus4 was using a locally developed interest-free chart to determine when to use a
        system-generated refund or a manual refund. These charts were inconsistent among the
        campuses, and in some cases the charts contained insufficient information.
    •   Not all IRS campuses were working carryback claims as a priority.
The IRS could pay significantly more interest if improvements to its procedures for working
carryback claims are not made soon. Rising interest rates equate to more interest paid per claim.
Since September 2004, the interest rate has increased from 4 percent to 7 percent for tax
overpayments to individuals. In addition, the volume of carryback claims the IRS receives is
likely to increase as a result of Hurricanes Katrina, Rita, and Wilma. The National Hurricane
Center5 estimates personal damages suffered by victims of the Hurricanes that hit the Gulf Coast
Region of the United States in 2005 at almost $100 billion. The impact of inefficiencies in IRS
procedures will be compounded as the inventory of claims grows. The IRS also is going to have


2
  These sites process paper and electronic submissions, correct errors, and forward data to the Computing Centers
for analysis and posting to taxpayer accounts.
3
  The Correspondence Imaging System is a modern, digital, image-based system for processing taxpayer
correspondence.
4
  The campuses provide many of the major services to taxpayers, including processing of tax returns and other
claims and responding to taxpayers that either have telephoned or written the IRS asking for assistance.
5
  The National Hurricane Center is part of the United States Department of Commerce National Oceanic and
Atmospheric Administration.
                                                                                                                    2
                       Untimely Processing of Taxpayer Carryback Claims
                             Resulted in Significant Interest Costs



fewer locations available to receive and process these claims as it continues to close Submission
Processing sites. The IRS Net Tax Refund Reports are one tool the IRS can use to monitor the
number of carryback claims being paid with interest. However, IRS managers were not using
these Reports to monitor the timeliness of carryback claims processing.

Recommendations
We recommended the Director, Submission Processing, require that all carryback claims be
identified upon receipt in the Submission Processing sites and routed directly to the IRS function
responsible for processing them. The Director, Accounts Management, should reemphasize the
importance of following current manual refund procedures for carryback claims. The Director,
Accounts Management, also should ensure the annual Program Letter emphasizes the importance
of working carryback claims within the interest-free period and use the Net Tax Refund Reports
as a tool to evaluate the timeliness of carryback claim processing.

Response
IRS management agreed with our recommendations. The IRS will implement a prescreening
process for all Forms 1040X with carryback claims. The IRS indicated instructions are already
in place to expedite Forms 1045. Management has issued employee alerts stressing the
importance of working carryback claims within the 45-day interest-free period and will consider
including evaluations of manual refunds on carryback claims in their business reviews. Under
separate cover from the Program Letter, the IRS will issue specific guidance on processing
carryback claims. Finally, the IRS will begin using the Net Tax Refund Reports as a tool to
evaluate the timeliness of processing carryback claims. Management’s complete response to the
draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                    3
                                 Untimely Processing of Taxpayer Carryback Claims
                                       Resulted in Significant Interest Costs




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Manually Issuing Refunds Resulted in Interest Savings...............................Page 4
          Processing Claims More Timely Can Reduce
          Taxpayer Burden and Save Interest ..............................................................Page 5
                    Recommendation 1:........................................................Page 8

                    Recommendation 2:........................................................Page 10

                    Recommendation 3:........................................................Page 11

          The Amount of Unnecessary Interest Paid Could Increase
          Significantly if Procedures Are Not Changed Soon .....................................Page 11
                    Recommendation 4:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Details on the Selection of Carryback Transactions
          for Review.....................................................................................................Page 25
          Appendix VI – Management’s Response to the Draft Report ......................Page 27
        Untimely Processing of Taxpayer Carryback Claims
              Resulted in Significant Interest Costs




                  Abbreviations

CIS           Correspondence Imaging System
IMF           Individual Master File
IRS           Internal Revenue Service
TC            Transaction Code
TIGTA         Treasury Inspector General for Tax Administration
W&I           Wage and Investment
                             Untimely Processing of Taxpayer Carryback Claims
                                   Resulted in Significant Interest Costs




                                              Background

Taxpayers incurring a significant loss from business activities or natural disasters could find their
deductions exceeding their income for the year the loss occurred. When this happens, the
taxpayers incur a net operating loss (loss). Taxpayers can opt to carry back a loss to earlier tax
years and obtain a refund of taxes paid in those prior years. Losses generally can be carried back
to the 2 prior tax years.1
Hurricanes Katrina, Rita, and Wilma hit the Gulf Coast Region of the United States in August,
September, and October 2005, respectively. In fall 2005, Congress passed the Katrina
Emergency Tax Relief Act of 20052 and the Gulf Opportunity Zone Act of 20053 to aid the
victims of these Hurricanes. These Acts include provisions that eliminate the limitations on
personal casualty or theft losses caused by these Hurricanes. The Gulf Opportunity Zone Act of
2005 also allows taxpayers affected by Hurricane Katrina that live in the Gulf Opportunity Zone4
to carry back certain qualified losses 5 years.
Individual taxpayers can get their carryback refunds by filing an Application for Tentative
Refund (Form 1045) or an Amended U.S. Individual Income Tax Return (Form 1040X),
depending on their situations. Figure 1 outlines the differences between a Form 1045 and a
Form 1040X. Although there are different criteria for filing each Form, the Internal Revenue
Service (IRS) must pay interest on a refund claimed on either Form if the refund is not issued
within 45 calendar days of the received date of the Form or the due date of the loss year return,5
whichever is later.




1
  Losses due to a casualty or theft or those attributable to a Presidentially declared disaster for a qualified small
business can be carried back 3 tax years.
2
  Pub. L. No. 109-73, 119 Stat. 2016 (2005).
3
  Pub. L. No. 109-135, 119 Stat. 2577 (2005).
4
  The Gulf Opportunity Zone allows affected persons in certain counties in the States of Alabama, Louisiana, and
Mississippi as determined by the Federal Emergency Management Agency to be eligible for either individual only
or both individual and public assistance from the Federal Government.
5
  Without extensions.
                                                                                                               Page 1
                              Untimely Processing of Taxpayer Carryback Claims
                                    Resulted in Significant Interest Costs



                 Figure 1: Differences Between a Form 1045 and Form 1040X
                                     Years to Which a Loss           IRS Processing
      Form         When to File        Can Be Applied                 Requirements              Type of Refund
    Form 1045     Within 1 year of   Can be used to apply        Within 90 days of the       Refunds are considered
                  the end of the     loss to multiple years.     date the claim was filed    “tentative.” The IRS
                  loss year.                                     or the last day of the      can assess and collect
                                                                 month that includes the     tax immediately if the
                                                                 due date of the loss year   refund is later found to
                                                                 return,6 whichever is       be in error.
                                                                 later.
    Form 1040X    Up to 3 years      Must file a separate        Taxpayer can file suit      The claim is considered
                  after the due      Form 1040X for each         in court if Form 1040X      correct when the refund
                  date of the loss   year to which the loss is   is not processed within     is issued.
                  year return.7      to be applied.              6 months of the date
                                                                 filed.
Source: IRS Forms 1045 and 1040X instructions and Net Operating Losses (NOLs) for Individuals, Estates, and
Trusts (Publication 536).

The IRS is in the process of changing the way it processes taxpayer correspondence, including
Forms 1045 and 1040X. In November 2003, the IRS Austin Campus8 in Austin, Texas, began
piloting and implementing the Correspondence Imaging System (CIS). When fully
implemented, the CIS will result in a modern, digital, image-based system for processing
taxpayer correspondence instead of one that is paper intensive. Forms 1045 and 1040X, as well
as other taxpayer correspondence received at the IRS campuses, are scanned into the CIS, which
is part of the Accounts Management function. After scanning, the CIS assigns the imaged forms
to IRS employees for processing in the Accounts Management Adjustment function. When the
CIS is fully implemented at all IRS campuses,9 employees will have universal access to the
electronically imaged claims. The Treasury Inspector General for Tax Administration (TIGTA)
is in the process of evaluating implementation of the CIS.
This review was performed in the Wage and Investment (W&I) Division Headquarters in
Atlanta, Georgia, and the Accounts Management and Submission Processing functions in the
Austin and Kansas City, Missouri, Campuses during the period August 2005 through
May 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.


6
  Including extensions.
7
  Including extensions.
8
  The campuses provide many of the major services to taxpayers, including processing of tax returns and other
claims and responding to taxpayers that either have telephoned or written the IRS asking for assistance.
9
  The IRS plans to complete implementation of the CIS in all 10 campuses in 2007.
                                                                                                               Page 2
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs




                                      Results of Review

The National Hurricane Center10 estimates the personal damages suffered by people located in
the Gulf Coast Region11 as a result of Hurricanes Katrina, Rita, and Wilma at almost
$100 billion.12 It also estimates that thousands of families lost their homes and places of
employment. The Insurance Information Institute reports that 2005 was by far the costliest year
                                         ever for insured catastrophic losses in the United States.
     It is important that carryback      Taxpayers who suffer significant losses such as these can
    claims are processed timely to       obtain some financial relief by filing claims for refunds of
     reduce the financial strain on      taxes paid in prior years. Because a loss of this magnitude
   taxpayers suffering losses such       can place a financial strain on taxpayers, it is important
         as those caused by the
             2005 Hurricanes.
                                         that the IRS quickly process these claims and timely issue
                                         the related refunds.
Timely processing carryback claims and issuing refunds also saves considerable Federal
Government resources by eliminating the need to pay interest on those refunds. Claims for
refunds resulting from applying a net operating loss to a prior tax year vary significantly from
other types of taxpayer claims. The IRS generally must pay interest on claims other than
carrybacks, such as those to correct an error on a previously filed return, from the due date of the
original return to the date the IRS received the claim. The IRS is required to pay additional
interest if these claims are not processed within 45 calendar days. Regardless of how timely a
noncarryback claim is processed, the IRS will pay some interest to the taxpayer.
However, it is possible for the IRS to avoid paying any
interest on a carryback claim if the claim is processed
                                                                  Untimely processing of
within 45 calendar days. One day could mean the                carryback claims causes the
difference between not paying any interest and paying              IRS to pay interest it
thousands of dollars in interest. For example, if a taxpayer    normally would not have to
files a claim that creates a potential refund of $1 million                pay.
and the IRS timely processes the claim and issues the
refund, the taxpayer receives no interest. However, issuing the refund on the 46th day causes the
IRS to pay $179,000 in interest.13




10
   The National Hurricane Center is part of the United States Department of Commerce National Oceanic and
Atmospheric Administration.
11
   This includes the States of Alabama, Florida, Louisiana, Mississippi, and Texas.
12
   This estimate includes both insured and uninsured losses.
13
   Interest computed based upon a taxpayer properly filing a Form 1040X within the required 3-year time period.
                                                                                                           Page 3
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



In Calendar Year 2004,14 individual taxpayers filed approximately 88,000 carryback claims15 that
resulted in refunds and the IRS paid interest totaling $25.1 million.16 The number of carryback
claims fell to 61,700 in Calendar Year 2005, and interest paid totaled about $23.3 million.
In September 2004, we reported the IRS could have avoided an estimated $12.6 million in
interest paid to corporations on refunds resulting from carryback claims that were not processed
within the 45-day interest-free period.17 For this review, we evaluated the processing of
Forms 1045 and 1040X filed by individual taxpayers between August 1, 2004, and
July 30, 2005. The IRS was able to avoid or reduce the amount of interest it paid on some of the
carryback claims we reviewed. However, improving the processes the IRS uses to work
carryback claims can reduce further the amount of interest the IRS pays.

Manually Issuing Refunds Resulted in Interest Savings
The IRS has two methods for issuing refunds to taxpayers. Normally, a refund is generated by
the IRS computer system. It generally takes 14 days to issue a generated refund because the
information must post to the IRS Master File18 before the refund can be issued. The IRS also can
issue a refund manually. A manual refund takes approximately 2 days to issue and is faster
because the refund is issued before the refund information posts to the Master File. Therefore,
issuing a manual refund allows the IRS another 2 weeks to 3 weeks to process a carryback claim.
The 45-day interest-free period is computed using the date the refund is issued. Because manual
refunds take less time to issue, the IRS may be able to issue them before the 45-day interest-free
period on carryback claims expires. Issuing a manual refund could eliminate the need for the
IRS to pay interest. Because the 45-day interest-free period is so critical, the IRS requires that
the refund be issued manually if a claim is over $1 million. A manual refund also should be
issued if the claim is over a certain dollar amount and the 45-day interest-free period is in
jeopardy or has expired.
We reviewed all carryback claims over $1 million and a statistical
sample of carryback claims from $10,000 to $1 million that had                        We estimate the IRS
posted to the Individual Master File19 between August 1, 2004,                       avoided paying about
                                                                                   $9.4 million in interest by
and July 30, 2005. The IRS avoided paying approximately
                                                                                   issuing manual refunds.
$1.6 million in interest on 69 (14 percent) of the 499 claims


14
   Source: IRS Net Tax Refund Reports.
15
   The number of tax years with refunds that resulted from losses carried back to those tax years.
16
   Some of the interest paid may have been paid on claims filed prior to Calendar Year 2004.
17
   Avoidable Interest Was Paid on Tentative Carryback Refunds Requested by Corporate Taxpayers (Reference
Number 2004-30-171, dated September 2004).
18
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
19
   The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                            Page 4
                              Untimely Processing of Taxpayer Carryback Claims
                                    Resulted in Significant Interest Costs



reviewed by issuing manual refunds as required. Based on these results, we estimate the IRS
saved about $9.4 million by issuing manual refunds on 2,882 claims for which the interest-free
period would not have been met otherwise. Details on our sample selection can be found in
Appendices I and V.

Processing Claims More Timely Can Reduce Taxpayer Burden and
Save Interest
While the IRS was able to avoid some interest costs by issuing manual refunds, it can further
reduce the burden on taxpayers filing carryback claims and the amount of interest it pays on
those claims. Taxpayers who file carryback claims generally have suffered catastrophic losses,
which can create a financial hardship on individuals. Any delay these taxpayers experience in
receiving a valid refund as a result of that loss can increase that financial hardship. Delays in
processing carryback claims also cause the IRS to pay interest it does not necessarily have to
pay.
The IRS can refine its processes for working carryback claims to better ensure claims are
processed timely and refunds are issued within the 45-day interest-free period. An analysis of
                                     our statistical sample of carryback claims showed
                                     120 (24 percent) of the 499 claims were not processed within
          The IRS could pay          the 45-day interest-free period and the IRS paid interest
   approximately $101.7 million      totaling approximately $1.8 million as a result. Figure 2
      in interest over the next
   5 years if processing delays      provides the details on our samples and the related test
          are not corrected.         results. We estimate about 5,700 claims were not processed
                                     timely and interest of approximately $20.3 million was paid
                                     unnecessarily. If this condition is not corrected, it could
affect approximately 28,400 taxpayers, and the IRS could pay unnecessary interest totaling about
$101.7 million over the next 5 years.20 We anticipate the actual amount of interest the IRS will
pay unnecessarily over the next 5 years may be significantly higher than estimated because of
continually increasing interest rates and a likely increase in the volume of claims resulting from
Hurricanes Katrina, Rita, and Wilma.




20
     See Appendix IV for details.
                                                                                            Page 5
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



                     Figure 2: Carryback Claim Samples and Test Results
               Claim                Claims           Claims Not            Percentage Not
                                   Reviewed       Processed Timely        Processed Timely      Interest Paid
      Form 1045
         $10,000 to $1 million        150                 24                    16.0%              $25,572
              Over $1 million         72                  10                    13.9%             $429,030
      Form 1040X
         $10,000 to $1 million        250                 80                    32.0%             $388,094
              Over $1 million         27                   6                    22.2%             $953,000
      Total Claims                    499                 120                  24.0%             $1,795,696
     Source: TIGTA review of a sample of carryback claims processed between August 1, 2004, and July 30, 2005.

We identified the following areas that contributed to the payment of unnecessary interest:
•    Procedures to identify and route carryback claims for processing may have prevented the IRS
     from working the claims timely.
•    Claims were not given the correct priority codes when scanned into the CIS.
•    Manual refunds were not always issued as required.
•    Claims were not processed timely once they were assigned to an IRS employee.

Procedures to identify and route carryback claims for processing may have
prevented the IRS from working the claims timely
When carryback claims are received at a Submission Processing site,21 a received date is
recorded on each claim. The received date generally begins the 45-day period the IRS has to
process those claims without having to pay interest. Forms 1045, along with other various
taxpayer correspondence, are routed to the Accounts Management Adjustment function, which is
responsible for processing the claims. All Forms 1040X, regardless of whether they include a
carryback claim, go through a screening process in the Submission Processing site to determine
if they can be processed. Once the IRS identifies the Form 1040X as a carryback claim, the
claim is forwarded to the Accounts Management Adjustment function for processing. In sites
where the CIS has been implemented, the Forms 1045 and 1040X have to be scanned into the
CIS before being assigned to an examiner for processing.



21
  The data processing arm of the IRS. The processing sites process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                             Page 6
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



The Submission Processing sites have up to 12 calendar days,22 starting with the received date, to
forward carryback claims to either the CIS or the Accounts Management Adjustment function.
Because interest is payable if a claim is not processed within 45 days, this routing time reduces
the time the Accounts Management Adjustment function has to work the claim once it is
received. The impact is even greater in locations at which the CIS has been implemented, where
IRS employees must sort through and image thousands of taxpayer forms, letters, and other
correspondence each day. Employees are supposed to scan carryback claims into the CIS before
any other taxpayer correspondence. However, identifying the claims may take a few days
depending on the daily workload. Once the imaged data have been validated, the claims are
finally assigned to an examiner in the Accounts Management Adjustment function to be
processed. The additional time it takes to scan the claims into the CIS coupled with the time to
send the claims to the Accounts Management Adjustment function could mean an examiner has
only a few days to work the claim and issue the refund before the 45-day interest-free period
expires.
One Submission Processing site we reviewed has a local procedure to prioritize the routing of
both Form 1045 and Form 1040X carryback claims to the Accounts Management function. This
site screens all incoming documents to identify both Form 1045 and Form 1040X carryback
claims as they come into the IRS. The claims are then routed daily to the CIS where they are
imaged.23 This eliminates any potential delay in getting the claims to the CIS and increases the
likelihood the claims will be processed timely. Separately identifying and routing carryback
claims to the Accounts Management function also may improve timeliness in scanning the
claims in locations where the CIS has been implemented because the claims would already have
been identified for priority scanning.
For the carryback claims we reviewed that had interest paid and were processed in this
Submission Processing site, none of the interest paid was the result of delays in getting the
claims to the Accounts Management Adjustment function. In contrast, we found that other
Submission Processing sites sometimes had lengthy delays before the claims were assigned to be
processed by the Accounts Management Adjustment function. We identified 44 claims that were
processed in the Submission Processing sites where the CIS had been implemented and that had
interest paid. It took more than 15 calendar days from the date the claim was received to scan
15 (34 percent) of the 44 claims into the CIS. Because the IRS does not record when the claims
are received in the unit responsible for scanning them, we cannot be certain whether the delay
was in routing the claims to this unit or in scanning the documents into the CIS. Regardless,
prioritizing the identification and routing of carryback claims in the Submission Processing sites



22
   Prior to November 15, 2004, the standard was 11 workdays. Workdays are defined as nonholiday Mondays
through Fridays.
23
   During the brief period of time after April 15 when the volume of documents received is extremely high, it may
take up to 7 days before claims are identified and routed to the Accounts Management function.
                                                                                                           Page 7
                        Untimely Processing of Taxpayer Carryback Claims
                              Resulted in Significant Interest Costs



could increase significantly the amount of time the Accounts Management function has to
process the claims once they are received.
We are in the process of conducting a separate review to determine the timeliness and accuracy
of processing taxpayer correspondence through the CIS. Therefore, we are making no
recommendations in this report related to the procedures for receiving and tracking work to be
scanned into the CIS.

Recommendation
Recommendation 1: The Director, Submission Processing, should require that all
Forms 1045 and 1040X with a carryback claim be identified upon receipt in the Submission
Processing sites and routed directly to the Accounts Management function.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will implement prescreening of all Forms 1040X with carryback claims. This will
       allow the returns to be identified upon receipt in Submission Processing sites and routed
       directly to the Accounts Management functions. The IRS indicated procedures are
       already in place to expedite the routing of Forms 1045.

Claims were not given the correct priority codes when scanned into the CIS
The IRS has procedures in place to enter a priority code during the CIS scanning process to
ensure higher dollar carryback claims are identified and processed first. These priority codes are
specific to carryback claims and do not apply to other types of taxpayer correspondence
processed in the Accounts Management function. The priority code assigned to a carryback
claim depends on the dollar amount of the claim. For example, carryback claims of $1 million or
more receive the highest priority. Accounts Management function employees must enter a
priority code manually for each claim above a certain dollar amount. If the amount of the claim
falls below the set amount, the system will default to “no priority.”
Our review of claims processed in Submission Processing sites that used the CIS showed a
significant number of higher dollar claims were incorrectly coded as no priority. IRS employees
did not enter a priority code, causing the CIS to incorrectly assign the default no priority code to
these claims. It is likely that the way in which the CIS is programmed is contributing to the high
error rate in assigning priority codes to carryback claims. For example, the system does not
force employees to enter a priority code. When an employee does not enter a priority code as
required, the CIS simply defaults to no priority. Of the 120 claims for which interest was paid
because the 45-day interest-free period was not met, 44 were processed in locations using the
CIS. A priority code was not entered when required in 22 (50 percent) of the 44 claims. While
we could not determine with certainty that giving these claims an improper priority code caused
them to be processed untimely, it is likely the incorrect priority codes were a contributing factor.


                                                                                             Page 8
                       Untimely Processing of Taxpayer Carryback Claims
                             Resulted in Significant Interest Costs



Management Action: Requiring Accounts Management function employees to input a priority
code for each carryback claim would prevent claims from being scanned and processed without a
priority code. Subsequent to our review, the Accounts Management function modified the
programming of the CIS to require employees to enter a priority code for each carryback claim.
If a priority code is not entered, the employee will receive a system error. The Internal Revenue
Manual procedures were updated to reflect this change.

Manual refunds were not always issued as required
IRS procedures require that a manual refund be issued on any carryback claim over $1 million
and on any claim over a certain dollar amount for which the 45-day interest-free period is in
jeopardy or has expired. However, IRS employees did not always issue manual refunds when
required. Of the 120 carryback claims that were not processed timely, 44 (37 percent) should
have had a manual refund issued but did not. The IRS could have avoided paying $108,381 in
interest on these 44 claims if it had issued a manual refund as required. Based on these results,
we estimate the IRS should have used a manual refund for 2,196 claims and would have avoided
paying unnecessary interest totaling about $4.7 million. The IRS also could have reduced the
amount of interest it paid on other claims for which the 45-day interest-free period had already
expired if it had issued a manual refund. The savings varied based upon the refund amount, the
period of time the refund was computed on, and the applicable interest rate(s).
One factor that may have contributed to the payment of unnecessary interest is the lack of an
IRS-wide tool to determine the last day a system-generated and a manual refund can be issued to
avoid paying interest. The IRS campuses use a chart showing the last day a system-generated
refund and a manual refund can be issued to avoid paying interest. However, each IRS campus
developed its own chart, and the charts were not reviewed or approved by the W&I Division
Headquarters.
Review of the individual IRS campus charts identified inconsistencies among the charts. These
inconsistencies, along with uncertainty on how to use the charts, contributed to the IRS not
issuing manual refunds as required. For example, the chart in one campus indicated interest
could be avoided completely if a manual refund was issued on or before the 38th day after the
carryback claim was received. Employees in this campus also believed mistakenly that, once the
38-day deadline had passed, they were not required to issue a manual refund. The chart in
another campus showed a manual refund could be issued on the 42nd day to avoid paying
interest. Charts in two other IRS campuses did not provide a specific date by which employees
should issued a manual refund instead of a system-generated refund. The IRS could not explain
the reason for the differences in the charts used in each campus.
Management Action: Developing one chart that can be used by all of the IRS campuses would
help ensure consistency in the use of manual refunds by ensuring all campuses are using the
same critical maximum number of days to issue manual refunds and avoid paying interest.
Subsequent to our review, the W&I Division took steps to develop an interest-free chart for use

                                                                                          Page 9
                             Untimely Processing of Taxpayer Carryback Claims
                                   Resulted in Significant Interest Costs



in all campuses in determining when a manual refund should be used to avoid paying interest.
The IRS also issued two alerts to its employees to discontinue use of their local charts and
immediately begin using this new interest-free chart.

Recommendation
Recommendation 2: The Director, Accounts Management, should reiterate the importance of
following current IRS procedures to issue manual refunds on carryback claims. The Director
also should consider including an evaluation of the proper use of manual refunds for carryback
claims in all business reviews of the Accounts Management Adjustments function.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS has issued two employee alerts stressing the carryback claims and the 45-day
           interest-free period. Management will consider including evaluations of manual refunds
           on carryback claims in their business reviews.

Employees did not always consider carryback claims as priority work
Employees are required to monitor all carryback claims to ensure the 45-day interest-free period
is met. We determined interest could have been avoided had some of these claims been
monitored more closely. While failure to issue a manual refund was a contributing factor in
some of these claims, in many instances the delays in processing the claims were so long that
interest was due even though a manual refund was issued. For example, if a Form 1045 received
by the IRS was scanned into the CIS 3 days after receipt, but the claim was not closed until over
2 months later, the 45-day interest-free period would have expired even if a manual refund was
issued.
Delays in reviewing and processing claims were a contributing factor in the payment of interest
in at least 62 (52 percent)24 of the 120 carryback claims we reviewed on which interest was paid.
It took the IRS an average of 39 days (43 days for Forms 1045 and 37 days for Forms 1040X) to
review and process these 62 claims.
IRS guidelines state that carryback claims are to be given priority when working inventory.
However, local procedures in at least one IRS campus indicated all inventory, including
carryback claims, was to be processed on a first-in, first-out basis. This means other types of
work, such as noncarryback Form 1040X claims, would be processed ahead of carryback claims
if they are received first. This site’s local management processed all inventory as it was
received, at least in part, because the annual Program Letter from the W&I Division
Headquarters Accounts Management function did not mention the importance of avoiding
paying interest when possible. The annual Program Letter outlines the Accounts Management


24
     Eighteen of 34 Forms 1045 and 44 of 86 Forms 1040X.
                                                                                          Page 10
                        Untimely Processing of Taxpayer Carryback Claims
                              Resulted in Significant Interest Costs



function goals, objectives, and measures that employees will be held accountable for during the
year and clarifies certain operating guidelines and procedures.
We reviewed the Fiscal Year 2005 Accounts Management function Program Letter and
determined the Program Letter did not mention the need to give carryback claims priority or the
importance of processing those claims timely to avoid the payment of interest. The Program
Letter emphasized the overall importance of timeliness but did not indicate any one type of
taxpayer correspondence should be given priority attention. Emphasizing carryback claims and
their priority in the annual Program Letter would ensure all IRS campuses understand the
importance of meeting the 45-day interest-free period for carryback claims. The IRS advised us
it is revising the 2006 annual Program Letter to include an emphasis on the timely processing of
carryback claims.

Recommendation
Recommendation 3: The Director, Accounts Management, should ensure all current and
future annual Program Letters for the Accounts Management function include a statement that
emphasizes the importance of processing carryback claims within the 45-day interest-free period.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will provide specific guidance with regard to the timely processing of carryback
       claims within the 45-day interest-free period. The guidance will be issued under separate
       cover from the Program Letter.

The Amount of Unnecessary Interest Paid Could Increase
Significantly if Procedures Are Not Changed Soon
The IRS could pay significantly more interest on refunds from carryback claims if the
recommended changes to its procedures are not made soon. Factors that could contribute to
increased interest payments include a higher interest rate required for payments to individuals
and the likelihood the volume of carryback claims will increase as more victims of the 2005
Hurricanes determine if their losses qualify to be carried back to prior tax years. Data also
indicate the IRS is paying interest on a higher percentage of carryback claims filed by
individuals than it has in the past.

Interest rates have climbed significantly in the last year
Each calendar quarter, interest rates on tax overpayments and underpayments are adjusted using
the Federal Government short-term rate as a baseline, with an additional percentage added
depending upon various factors such as whether the payments apply to an individual or



                                                                                          Page 11
                             Untimely Processing of Taxpayer Carryback Claims
                                   Resulted in Significant Interest Costs



corporation.25 Since September 2004, the interest rate has increased steadily from 4 percent to
the current rate of 7 percent for tax overpayments to individuals. This means interest issued on
refunds now, which is compounded daily,26 would be much higher than interest on refunds issued
a year ago. As a result, it becomes more critical that the IRS timely process carryback claims
within the 45-day interest-free period. Figure 3 illustrates how increases in the interest rate have
affected the amount of interest paid on refunds. It represents interest due on a $1 million refund
paid to an individual taxpayer for 1 year computed to the nearest $100 and assumes the
7 percent interest rate will remain constant for the remainder of 2006.
                              Figure 3: Interest on a $1 Million Refund


                         $80,000


                         $60,000


                         $40,000


                         $20,000


                                $0
                                           2004              2005              2006

                     Source: TIGTA computation of potential interest paid on a refund of
                     $1 million for 1 year.

The Hurricane disasters of 2005 and legislation enacted to assist the victims
could soon lead to a higher volume of carryback claims
Millions of people suffered immense losses from the three Hurricanes that hit the United States
Gulf Coast Region in 2005. To assist the victims, Congress enacted the Katrina Emergency Tax
Relief Act of 2005 and the Gulf Opportunity Zone Act of 2005, which included provisions that
allow people potentially to take larger casualty loss deductions. The Gulf Opportunity Zone Act
also allows taxpayers affected by Hurricane Katrina to carry back certain net operating losses
5 years. Taxpayers affected by the Hurricanes were given additional time to file and pay their
taxes. In addition, taxpayers hit by the Hurricanes will have until October 16, 2006, to decide
whether to claim their losses on their Tax Year 2004 or Tax Year 2005 tax returns.

25
     Internal Revenue Code Section 6621 (2005).
26
     Internal Revenue Code Section 6622 (2005).
                                                                                            Page 12
                        Untimely Processing of Taxpayer Carryback Claims
                              Resulted in Significant Interest Costs



It is probable the IRS will see an increase in carryback claims for refunds due to casualty losses
from these Hurricanes. During our review, we monitored the volume of carryback claims using
one of the IRS Net Tax Refund Reports. This Report provides fiscal year monthly and
cumulative nationwide totals for various types of IRS refunds, including carryback claims filed
by individuals. The Report does not provide the number of refunds issued by the type of
carryback claim filed but does provide total refunds issued for all carryback claims. The Net Tax
Refund Report for the period October 2005 through March 2006 showed a 25 percent decline in
the volume of refunds on individual carryback claims when compared to the same period for the
previous year. However, the decline in volume slowed considerably in the last 2 months, with a
decline of only 1 percent in March 2006 compared to March 2005. This significant change could
be an indicator that the trend is now changing, and future months could see increased volumes of
carryback claims.

The IRS is paying interest on a higher percentage of claims
The Net Tax Refund Report also provides both the number of refunds on which interest was paid
and the total interest paid on refunds for carryback claims filed by individuals. Although the
total number of refunds issued on individual carryback claims dropped approximately
25 percent, the total interest paid on those refunds increased about 10 percent, from $12.3 million
to $13.6 million. The Report for October 2005 through March 2006 showed the IRS is paying
interest on a significantly higher number of refunds from carryback claims. The IRS paid
interest on about 48 percent of the carryback refunds during these 6 months. In comparison, the
IRS paid interest on about 38 percent of the carryback refunds for the period October 2004
through March 2005.
Part of the reason for the increasing amount of interest being paid could be implementation of the
CIS. Although our tests did not show significant differences between carryback claims
processed in IRS campuses that used the CIS and those that did not, we did find areas where
improvements in the CIS could improve the timeliness of claims processing. Another indicator
that the CIS could be affecting the amount of interest being paid can be found in the Net Tax
Refund Reports. Our analysis of these Reports for October 2005 through March 2006 for the
individual IRS Submission Processing sites showed a significant increase in the percentage of
claims on which interest was paid in one IRS site. This site paid interest on 24 percent of the
refunds issued on individual carryback claims between October 2004 and July 2005. This same
site paid more than twice as much interest, 62 percent, between October 2005 and March 2006.
The only significant change in this site was implementation of the CIS in July 2005.
With higher interest rates, the potential for an increased volume of carryback claims, and the
rising amounts of interest paid per refund issued on those claims, it is important that the IRS
continually evaluate the timeliness of processing carryback claims both from a nationwide
perspective and by individual IRS campus. Other changes within the IRS also could affect the
processing of carryback claims. For example, the IRS plans to continue reducing the number of
Submission Processing sites based upon the growth in electronic filing. Taxpayers are instructed
                                                                                          Page 13
                        Untimely Processing of Taxpayer Carryback Claims
                              Resulted in Significant Interest Costs



to file their carryback claims at the Submission Processing site where they file their tax returns.
As Submission Processing sites close, fewer sites will be available to receive and process these
claims.
The Net Tax Refund Reports could be a valuable tool for the IRS to evaluate the timeliness of
carryback claim processing. We asked the IRS about these Reports and determined that no one
appeared to be using them to evaluate the processing of carryback claims. These Reports cannot
pinpoint the causes of the increasing number of carryback claims or the rising interest costs
associated with refunds paid on those claims. However, they can provide an indication of where
problems may exist. These indicators will help the IRS identify and correct any problems that
could be affecting its ability to process carryback claims timely.

Recommendation
Recommendation 4: The Director, Accounts Management, should use the Net Tax Refund
Reports as a tool to evaluate the timeliness of processing carryback claims for refunds.
       Management’s Response: IRS management agreed with this recommendation. The
       Accounts Management function has instituted a process for reviewing the Net Tax
       Refund Reports and will use these data as an indicator of progress in conjunction with the
       guidelines provided to the sites related to the processing of carrybacks claims.




                                                                                            Page 14
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether refunds resulting from carryback
claims filed by individuals on an Application for Tentative Refund (Form 1045) or an Amended
U.S. Individual Income Tax Return (Form 1040X) were issued timely by the IRS to minimize
unnecessary taxpayer burden and avoid the payment of interest. The audit focused on individual
carryback claims that were processed and closed between August 1, 2004, and July 30, 2005.
We verified the reliability of the electronic data used in this review by comparing actual tax
documents to the information contained on the IRS Integrated Data Retrieval System.1
To accomplish our objective, we:
I.      Determined whether controls over the receipt and processing of carryback claims ensured
        the claims were processed timely to minimize taxpayer burden and avoid unnecessary
        interest costs.
        A. Reviewed the Internal Revenue Manual2 to identify how carryback claims are routed
           to and subsequently processed by the Accounts Management function and whether
           these claims received higher priority than other taxpayer correspondence. This
           included obtaining copies of interest-free charts used by the IRS sites to determine
           when manual refunds should be issued, to avoid paying interest.
        B. Reviewed the IRS Wage and Investment Division Accounts Management function
           Fiscal Year 2005 Program Letter to determine whether the need to give carryback
           claims priority over other types of refund claims was mentioned specifically.
        C. Conducted a walk-through of the Submission Processing and Accounts Management
           functions in the Kansas City, Missouri, and Austin, Texas, Campuses3 to observe how
           carryback claims are processed, including the imaging of claims as part of the CIS4
           operation. This included interviews with managers and lead personnel of the various
           functions concerning the carryback claims procedures and controls.



1
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with
taxpayer account records.
2
  The Internal Revenue Manual contains the policies, procedures, and guidelines for IRS operations.
3
  The campuses provide many of the major services to taxpayers, including processing of tax returns and other
claims and responding to taxpayers that either have telephoned or written the IRS asking for assistance.
4
  The CIS is a modern, digital, image-based system for processing taxpayer correspondence.
                                                                                                          Page 15
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



        D. Obtained copies of the relevant Net Tax Refund Reports from the IRS Chief Financial
           Officer.
II.     Determined whether the IRS is paying unnecessary interest on refunds from carryback
        claims filed by individuals.
        A. Reviewed a sample of 499 carryback claim transactions that were processed and
           posted to the IMF5 between August 1, 2004, and July 30, 2005, to determine whether
           refunds were issued within the 45-calendar-day interest-free period.
             We extracted all Transaction Codes (TC) 295, Abatement of Prior Tax Assessment
             With Interest Computation Date,6 that had posted to the IMF between August 1, 2004,
             and July 30, 2005. We also extracted all TCs 299, Abatement of Prior Tax
             Assessment Interest Computation Date,7 that had posted to the IMF during the same
             period.
                 Total TCs 295 identified – 43,279.
                 Total TCs 299 identified – 36,147.
             We stratified the results into 2 categories for each type of transaction: those
             exceeding $1 million and those of at least $10,000 up to and including $1 million.
             The populations were stratified to ensure our test results were not distorted by any
             transaction over $1 million and because the IRS processing procedures differ for
             transactions above $1 million. We did not select transactions below $10,000 because
             our data analysis indicated that a high percentage of the dollars paid were on
             carryback claims above $10,000.
             We reviewed all 99 transactions (72 TCs 295 and 27 TCs 299) over $1 million. We
             selected a statistically valid sample of 400 transactions (150 TCs 295 and
             250 TCs 299) for amounts that were at least $10,000 but not more than $1 million.
             We used a 95 percent confidence level and a ±5 percent precision level to determine
             our sample sizes. A 10 percent expected error rate was used for TCs 295, and a
             20 percent expected error rate was used for TCs 299.8 These samples were selected
             using a random number generator.
             For each of the transactions meeting our dollar criteria, we used the Integrated Data
             Retrieval System to validate that the transaction was a TC 295 or TC 299 and that it


5
  The IRS database that maintains transactions or records of individual tax accounts.
6
  A TC 295 in the account of an individual taxpayer signifies the tax adjustment was based on a Form 1045.
7
  A TC 299 in the account of an individual taxpayer signifies the tax adjustment was based on a Form 1040X.
8
  Expected error rates were based on information on the overall error rate for both TCs 295 and 299 from the IRS
Net Tax Refund Reports and our data analysis to estimate what portion of this rate was attributable to TCs 295 and
TCs 299 individually.
                                                                                                          Page 16
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



             had posted to the individual taxpayer’s account for the amount listed in our data files.
             Additional information about the selection of our samples can be found in
             Appendix V.
         B. Researched the Integrated Data Retrieval System for each transaction selected to
            determine whether the carryback claim resulted in a refund to the taxpayer and
            whether interest was paid on that refund because the claim was not processed within
            the 45-day interest-free period. For claims on which interest was paid, we obtained
            either the Form 1045 or 1040X, if available, or a copy of the electronically imaged
            document if it was processed through the CIS and related source documentation.
            Where possible, we determined the reason the IRS paid interest on the refund.
         C. Identified 337 transactions9 in which refunds were issued and interest was not paid.
            For each of these transactions, we determined whether a manual refund was required
            per IRS procedure.10 If a manual refund was used as required and resulted in the IRS
            not having to pay interest,11 we computed the amount of interest the IRS avoided.




9
  Of the 499 claims sampled, 162 either had no refund because of other outstanding tax liabilities or had interest
paid.
10
   IRS procedures require that manual refunds be issued for all claims over $1 million or when claims are above a
certain dollar level and the interest-free period is in jeopardy or has expired.
11
   For some claims, a system-generated refund could have been issued and still have been timely.
                                                                                                           Page 17
                      Untimely Processing of Taxpayer Carryback Claims
                            Resulted in Significant Interest Costs



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
John L. Hawkins, Lead Auditor
Linda L. Bryant, Senior Auditor
Glory Jampetero, Auditor




                                                                                   Page 18
                     Untimely Processing of Taxpayer Carryback Claims
                           Resulted in Significant Interest Costs



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 19
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 28,370 individual taxpayer accounts affected over the next
    5 years because refunds from carryback claims were not processed timely (see page 5).

Methodology Used to Measure the Reported Benefit:
We extracted all 43,279 TCs 295,1 Abatement of Prior Tax Assessment With Interest
Computation Date, that had posted to the IMF2 between August 1, 2004, and
July 30, 2005. We also extracted all 36,147 TCs 299,3 Abatement of Prior Tax Assessment
Interest Computation Date, that had posting during the same period. We stratified the
populations based on the transaction amount. Transactions were stratified into 2 categories:
those over $1 million and those of at least $10,000 up to and including $1 million. Transactions
were stratified to prevent our test results from being distorted by transactions over $1 million and
because the IRS has different procedures for working carryback claims over $1 million. We did
not select transactions below $10,000 because our data analysis indicated a high percentage of
the dollars paid on carryback claims was represented in these two dollar criteria.
Our estimates are based on review of all transactions over $1 million and review of random
statistical samples of transactions from $10,000 to $1 million. The statistical samples were
selected using an attribute sampling method with a 95 percent confidence level and a precision of
±5 percent. The expected error rate for the TC 295 sample was 10 percent, and the expected
error rate for the TC 299 sample was 20 percent. Appendix V provides additional details on the
results of our review.
Using the attribute sampling formula below, we estimate 5,674 taxpayers had their refunds from
carryback claims delayed because the claims were not processed within the 45-calendar-day
interest-free period. We projected the results of our statistical samples of transactions between

1
  A TC 295 in the account of an individual taxpayer signifies the tax adjustment was based on an Application for
Tentative Refund (Form 1045).
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  A TC 299 in the account an individual taxpayer signifies the tax adjustment was based on an Amended U.S.
Individual Income Tax Return (Form 1040X).
                                                                                                          Page 20
                              Untimely Processing of Taxpayer Carryback Claims
                                    Resulted in Significant Interest Costs



$10,000 and $1 million. We then added the results from our review of 100 percent of the claims
over $1 million to arrive at the total estimate of 5,674 taxpayers who had their refunds delayed.


                                                   p (1 − p )(1 − f )
                                          σp =
                                                         n −1
Where:
σ p = standard error of p expressed in percentage points (decimals).
p = the percentage (in decimals) of items possessing the attribute.
n = the number of items sampled.
N= the number of items in the universe.
f = the sampling fraction (n/N).
Computation of Estimate for TCs 295 of $10,000 to $1 million
We estimate 2,240 taxpayer accounts with a TC 295 were affected because refunds were not
issued within the 45-day interest-free period.
Using:
p = the percentage (in decimals) of items possessing the attribute is .16.
n = the number of items sampled is 150.
N = the number of items in the universe is 14,002.
f = the sampling fraction (n/N) is .010713.
The computation above equals .029866,4 which represents 1 standard error of the estimated
percentage of affected taxpayer accounts at a confidence level of 68 percent. Because our
preferred confidence level is 95 percent, we multiplied the result by the standard deviation factor
for a 95 percent confidence level (1.96). This results in a precision of ±5.85 percent. When the
precision is multiplied by our population, we have a total precision of ±820 taxpayer accounts.
Therefore, we are 95 percent confident that the number of taxpayer accounts with refunds not
issued within the 45-day interest-free period is 2,240 ±820 and that the actual number of
taxpayer accounts ranges from 1,420 to 3,060.
Computation of Estimate for TCs 299 of $10,000 to $1 million
We estimate 3,418 taxpayer accounts with a TC 299 were affected because refunds were not
issued within the 45-day interest-free period.




4
    The numbers presented here may not provide the same results due to the rounding of numbers.
                                                                                                  Page 21
                            Untimely Processing of Taxpayer Carryback Claims
                                  Resulted in Significant Interest Costs




 Using:
 p = the percentage (in decimals) of items possessing the attribute is .32.
 n = the number of items sampled is 250.
 N = the number of items in the universe is 10,680.
 f = the sampling fraction (n/N) is .023408.
 The computation above equals .029214, which represents 1 standard error of the estimated
 percentage of affected taxpayer accounts at a confidence level of 68 percent. Because our
 preferred confidence level is 95 percent, we multiplied the result by the standard deviation factor
 for a 95 percent confidence level (1.96). This results in a precision of ±5.73 percent. When the
 precision is multiplied by our population, we have a total precision of ±612 taxpayer accounts.
 Therefore, we are 95 percent confident that the number of taxpayer accounts with refunds not
 issued within the 45-day interest-free period is 3,418 ±612, and that the actual number of
 taxpayer accounts ranges from 2,806 to 4,030.
 Combining the estimates for our samples of claims of $10,000 to $1 million with the results from
 our review of all transactions over $1 million produced the overall estimated result shown in
 Figure 1.
          Figure 1: Consolidation of Estimate of Taxpayer Accounts Affected
                                   Actual Accounts           Estimated Accounts          Estimated Accounts
         Type of                      Affected                    Affected                    Affected
     Carryback Claim              (Over $1,000,000)         ($10,000–$1,000,000)        ($10,000 and Higher)
 TC 295 – Form 1045                      10                        2,240                        2,250
 TC 299 – Form 1040X                      6                        3,418                        3,424
 Totals – All Claims                     16                        5,658                        5,674
Source: TIGTA review of a sample of carryback claims processed between August 1, 2004, and July 30, 2005.

 Because the condition will continue to occur if not corrected, we projected our estimate of
 potential taxpayer accounts affected over 5 years, which totals 28,370.

 Type and Value of Outcome Measure:
 •   Funds Put to Better Use – Potential; at least $101,742,150 in interest will be paid
     unnecessarily on carryback claims over the next 5 years (see page 5).

 Methodology Used to Measure the Reported Benefit:
 Using the samples described above, we estimate the IRS paid $20,348,430 in unnecessary
 interest on carryback claims processed between August 1, 2004, and July 30, 2005. We used the
 variable sampling formula below to estimate the impact for each of the statistical samples and
                                                                                                        Page 22
                              Untimely Processing of Taxpayer Carryback Claims
                                    Resulted in Significant Interest Costs



combined those estimates with the results of the review of transactions over $1 million to arrive
at this estimate.

                                                     s ⎛   n ⎞
                                             A=Z       ⎜ 1− ⎟
                                                       ⎜
                                                      n⎝   N ⎟⎠
Where:
n = sample size.
Z = standard deviation factor.
s = standard deviation of the sample.
N = population size.
A = precision.
Computation of Estimate for TCs 295 of $10,000 to $1 million
Using the following information and the variable sampling formula above, we determined the
IRS paid $2,387,035 in unnecessary interest on TCs 295.
n = sample size of 150.
Z = standard deviation factor for a 95 percent confidence level is 1.96.
s = standard deviation of the sample is $647.03.
N = population size of 14,002.
A = precision per claim of $102.99.
We determined interest totaling $25,572 was paid in 24 taxpayer accounts. The mean, or
average, interest paid per claim was $170.48 for the total sample of 150 taxpayer accounts. We
multiplied the mean per claim by the population to compute total unnecessary interest paid of
$2,387,035. We then multiplied the total population of 14,002 by the precision per claim of
$102.99 to compute the total precision of $1,442,063. When we apply this precision, we are
95 percent confident the amount of unnecessary interest paid on TCs 295 during our review
period falls between $944,972 and $3,829,098.5
Computation of Estimate for TCs 299 of $10,000 to $1 million
Using the following information and the variable sampling formula above, we determined the
IRS paid $16,579,365 in unnecessary interest on TCs 299.
n = sample size of 250.
Z = standard deviation factor for a 95 percent confidence level is 1.96.
s = standard deviation of the sample is $7,519.05.
N = population size of 10,680.
A = precision per claim of $921.10.

5
    The numbers presented here may not provide the same results due to the rounding of numbers.
                                                                                                  Page 23
                               Untimely Processing of Taxpayer Carryback Claims
                                     Resulted in Significant Interest Costs



 We determined interest totaling $388,094 was paid in 80 taxpayer accounts. The mean, or
 average, interest paid per claim was $1,552.37 for the total sample of 250 taxpayer accounts. We
 multiplied the mean per claim by the population to compute total unnecessary interest paid of
 $16,579,365. We then multiplied the total population of 10,680 by the precision per claim of
 $921.10 to compute the total precision of $9,837,325. When we apply this precision, we are
 95 percent confident the amount of interest paid unnecessarily on TCs 299 during our review
 period falls between $6,742,040 and $26,416,690.6
 Combining these estimates with the results from our review of all transactions over $1 million
 produced the overall estimated result shown in Figure 2.
               Figure 2: Consolidation of Estimate of Unnecessary Interest Paid
                                                              Estimated Interest Paid   Estimated Interest Paid
           Type of                Actual Interest Paid              (Claims of                (Claims of
       Carryback Claim          (Claims Over $1,000,000)       $10,000 – $1,000,000)     $10,000 and Higher)
      TC 295 – Form 1045                 $429,030                   $ 2,387,035              $ 2,816,065
     TC 299 – Form 1040X                 $953,000                   $16,579,365              $17,532,365
       Totals – All Claims              $1,382,030                  $18,966,400              $20,348,430
Source: TIGTA review of a sample of carryback claims processed between August 1, 2004, and July 30, 2005.

 Because the condition will continue to occur if not corrected, we projected our estimate of
 potential interest paid over 5 years, which totals $101,742,150. We anticipate the actual amount
 of interest the IRS will pay incorrectly may be significantly higher than estimated because of
 continuously increasing interest rates and a likely increase in claims as a result of Hurricanes
 Katrina, Rita, and Wilma.




 6
     The numbers presented here may not provide the same results due to the rounding.
                                                                                                       Page 24
                           Untimely Processing of Taxpayer Carryback Claims
                                 Resulted in Significant Interest Costs



                                                                                              Appendix V

                       Details on the Selection of
                   Carryback Transactions for Review

We reviewed a sample of 499 carryback claim transactions that were processed and posted to the
IRS IMF1 between August 1, 2004, and July 30, 2005, to determine whether refunds were issued
within the 45-calendar-day interest-free period. We extracted all carryback transactions
generated by the filing and posting of an Application for Tentative Refund (Form 1045)2 or an
Amended U.S. Individual Income Tax Return (Form 1040X).3
        Form 1045 transactions identified – 43,279.
        Form 1040X transactions identified – 36,147.
We stratified the results into 2 categories for each type of transaction: those exceeding
$1 million and those of at least $10,000 up to and including $1 million. The populations were
stratified to ensure our test results were not distorted by any claim over $1 million. Also, the
IRS’ processing procedures differ for claims above $1 million. We did not select claims below
$10,000 because our data analysis indicated a high percentage of the dollars paid on carryback
claims was represented in these two dollar criteria.

Carryback claims of $10,000 up to and including $1 million
We randomly selected statistically valid samples from both the Form 1045 and Form 1040X
claims that met these dollar criteria. The samples were selected using a 95 percent confidence
level and a ±5 percent precision level. However, we applied different expected error rates to
each type of claim. Our expected error rates were determined by obtaining and analyzing the
IRS Net Tax Refund Reports to determine the overall error rate for all carryback claims and
additional analysis of TCs 295 to estimate how much of this error rate was attributable to
Form 1045 claims. Figure 1 provides additional details on the selection of our samples for
claims of $10,000 up to $1 million.




1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  These transactions are noted by TCs 295, Abatement of Prior Tax Assessment with Interest Computation Date, in
individual tax accounts on the IMF. A Form 1045 may contain a request to carry back a loss to more than 1 prior
tax year, resulting in multiple carryback transactions or “claims.”
3
  These transactions are noted by TCs 299, Abatement of Prior Tax Assessment Interest Computation Date, in
individual tax accounts on the IMF.
                                                                                                       Page 25
                                  Untimely Processing of Taxpayer Carryback Claims
                                        Resulted in Significant Interest Costs



                    Figure 1: Samples of Transactions - $10,000 to $1 Million
                           Type of                Total Number           Expected         Number of
                       Carryback Claim              of Claims           Error Rate      Claims Sampled
                    Form 1045 (TC 295)                 43,279              10%               150
                    Form 1040X (TC 299)                36,147              20%               250
                                                                ®
                  Source: The IMF and Microsoft Access database queries performed by the TIGTA.

 Transactions over $1 million
 We reviewed all 99 of the transactions over $1 million because the volume was small
 (72 TCs 295 and 27 TCs 299). Figures 2 and 3 provide additional information on the population
 of transactions, as well as the samples selected.
                        Figure 2: Carryback Claims Identified and Reviewed
                                                                                           Statistical    Total Amount
                                                                        Total Amount      Sample Size      for Samples
                    Claims         Total Amount        Claims of         (Claims of        (Claims of       (Claims of
      Type of         Over         (Claims Over        $10,000 –          $10,000 –         $10,000 –        $10,000 –
      Claim        $1,000,000       $1,000,000)        $1,000,000        $1,000,000)      $1,000,000)      $1,000,000)
     Form 1045         72          $138,249,674          14,002          $854,705,548         150          $ 8,978,900
 Form 1040X            27           $56,200,540          10,680          $559,835,104         250          $12,569,381
      Totals           99          $194,450,214          24,682        $1,414,540,652         400          $21,548,281
                                          ®
Source: The IMF and Microsoft Access database queries performed by the TIGTA.

                            Figure 3: Claims Processed in Sites With the CIS4
                                         Claims Processed                                  Number in
                                          Using the CIS              Statistical Sample      Sample        Total CIS
                      Claims Over           (Claims of                   (Claims of        Processed        Claims
 Type of Claim         $1,000,000        Over $1,000,000)           $10,000 – $1,000,000) Using the CIS    Reviewed
 Form 1045                   72                   33                        150                70             103
 Form 1040X                  27                   11                        250                92             103
 Totals                      99                   44                        400               162             206
                                          ®
Source: The IMF and Microsoft Access database queries performed by the TIGTA.




 4
     The CIS is a modern, digital, image-based system for processing taxpayer correspondence.
                                                                                                               Page 26
       Untimely Processing of Taxpayer Carryback Claims
             Resulted in Significant Interest Costs



                                                 Appendix V

Management’s Response to the Draft Report




                                                          Page 27
Untimely Processing of Taxpayer Carryback Claims
      Resulted in Significant Interest Costs




                                                   Page 28
Untimely Processing of Taxpayer Carryback Claims
      Resulted in Significant Interest Costs




                                                   Page 29
Untimely Processing of Taxpayer Carryback Claims
      Resulted in Significant Interest Costs




                                                   Page 30
Untimely Processing of Taxpayer Carryback Claims
      Resulted in Significant Interest Costs




                                                   Page 31
